(1a)
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CHARLES GUENTHER,
PlaintiffAppellant,
v.

Nos. 17-16984
18-15823
D.C. No.
5:11-cv-00380EJD

LOCKHEED MARTIN
CORPORATION; LOCKHEED
MARTIN CORPORATION
RETIREMENT PLAN FOR
CERTAIN SALARIED
EMPLOYEES,
DefendantsAppellees.

OPINION

Appeal from the United States District Court
for the Northern District of California
Edward J. Davila, District Judge, Presiding
Argued and Submitted June 11, 2019
Submission Vacated June 13, 2019
Resubmitted August 18, 2020
San Francisco, California
Filed August 25, 2020

Before: Ronald M. Gould, Sandra S. Ikuta, and
Ryan D. Nelson, Circuit Judges.
Opinion by Judge R. Nelson
_________________________________________________
COUNSEL
Andrew F. Pierce (argued), Pierce & Shearer LLP,
Redwood City, California, for Plaintiff-Appellant.
Clarissa A. Kang (argued), R. Bradford Huss, and
Dylan D. Rudolph, Trucker Huss APC, San
Francisco, California, for Defendants-Appellees.
Stephanie B. Bitto (argued), Trial Attorney; Thomas
Tso, Counsel for Appellate and Special Litigation; G.
William Scott, Associate Solicitor for Plan Benefits
Security; Kate S. O’Scannlain, Solicitor of Labor;
Office of the Solicitor, United States Department of
Labor, Washington, D.C.; for Amicus Curiae United
States Secretary of Labor.

OPINION
R. NELSON, Circuit Judge:
This appeal arises from a fiduciary’s alleged
breach of its duty to make accurate representations
to a beneficiary under the Employee Retirement
Income Security Act of 1974 (“ERISA”). Specifically,
we determine whether the beneficiary had actual
knowledge of the alleged breach and failed to bring
(2a)

suit within the statute of limitations prescribed
under ERISA. Because the record establishes that
the beneficiary had actual knowledge of the alleged
breach and failed to bring suit within the required
three-year period, we hold his claim is time-barred.
I
Appellant Charles Guenther began working for
Lockheed Martin Corporation (“LMC”) in 1983. From
1983 to 1991, he was an active participant in the
company’s retirement plan (the “Plan”), a defined
benefit pension plan. He left LMC in 1991, but
returned to work for the company again in 1997 and
was able to “bridge” his previously accrued service
credit under the Plan with his new service credit –
meaning that upon starting his new term of
employment with LMC, he was credited for his prior
eight years of accumulated service under the Plan
and could resume where he left off – in accordance
with the Plan provisions in effect at the time.1
In 2001, Guenther left LMC for the second time,
having accrued approximately 11.5 years of credited
service under the Plan. While Guenther was
employed elsewhere, the Plan was amended in 2005
(the “Plan Amendment”). The Plan Amendment
provided that “no person who is re-employed by
[LMC] on or after January 1, 2006 shall become an

1

During Guenther’s first and second periods of employment
with LMC, he participated in the Lockheed Retirement Plan for
Certain Salaried Employees (the “Salaried Plan”). The Salaried
Plan was later merged with the company’s other defined benefit
plans to form the Plan.

(3a)

active Participant or earn Credited Service under the
Plan with respect to any period commencing with
active Participant or earn Credited Service under the
Plan with respect to any period commencing with
such reemployment.” Under the Plan Amendment,
therefore, returning LMC employees hired after
January 1, 2006, could participate in a different
retirement plan – the Capital Accumulation Plan
(“CAP”) – but could not participate in or resume
accruing additional credited service under the Plan.
In 2006, Guenther began negotiations with an
LMC human resources representative to return to
work for the company. Prior to interviewing with
LMC, Guenther heard a “rumor” that the company
“was going to be changing around their [retirement]
plan.” This was an important issue for Guenther. So
during the negotiations that followed, he made clear
that one of his “key conditions” of returning was that
his “prior service be bridged so that he could receive
the full benefit of the company’s defined benefit
retirement plan.” The LMC representative indicated
it was possible to bridge his prior service with his
proposed new service, as Guenther had done when
he previously returned to LMC in 1997, and provided
him a form entitled “Application for Bridging of Prior
Service,” which Guenther submitted to LMC on July
17, 2006. The bridging form stated in part: “If your
request is approved, the date you submit this
application is the effective date that your current
period of service will bridge with your prior service.”
On July 25, 2006, LMC Pension Plan Operations
replied to his bridging request form in a letter (the
“July Letter”), stating in relevant part:
(4a)

Since you were vested in a pension
benefit provided by the Lockheed
Martin Corporation Retirement Plan
for Certain Salaried Employees, your
prior periods of Lockheed/Lockheed
Martin service will be bridged with
your proposed current Lockheed
Martin service.
According to Guenther, this was the only
communication from LMC that he believed told him
he would be accruing ongoing credited service in the
Plan. No other retirement plan (including CAP) was
brought to his attention at that time. The next
month, Guenther terminated his then-existing
employment, and then rejoined LMC in September.
After rejoining LMC, Guenther received a
November 7, 2006 letter (the “November Letter”)
from LMC Pension Plan Operations which stated, in
part, the following:
Since you were vested in a pension
benefit provided by the Lockheed
Martin Corporation Retirement Plan
for Certain Salaried Employees, your
prior periods of Lockheed/Lockheed
Martin service will be bridged with
your current Lockheed Martin service.
Consequently, your accrued benefit
under the Capital Accumulation Plan
has immediately become vested
because the combined total of your
Lockheed Martin controlled group
service exceeds five years.
(5a)

It should be noted that because you
are not currently participating in a
Lockheed Martin defined benefit
pension plan, you are not entitled to
a pension benefit from Lockheed
Martin for your current period of
service.
Guenther was “surprise[d]” by this letter because he
believed it contradicted LMC’s assurance in the July
Letter that he could bridge his prior service under the
Plan. Guenther had checked his account numerous
times online after he started at LMC in September to
see whether he had begun accumulating time for his
pension. No accumulated time was ever indicated. He
stopped checking his account online once he received
the November Letter.
Soon after receiving the November Letter, he
contacted LMC’s Employment Service Center
(“ESC”) to ask about the status of his pension, but
was told the bridging issue was handled by
CitiStreet, LMC’s employer benefits service provider.
CitiStreet then instructed him to contact ESC, which
he did again, but “got the run around.” In late
November, after several more calls, Guenther asked
to speak with someone at LMC’s Human Relations
office, but the person he was referred to was not
there and did not return his calls. In December,
Guenther visited a different Human Relations office
and showed the program HR Representative the July
and November Letters and asked for an explanation.
The HR Representative thanked him for bringing the
matter to her attention but never followed up. The
(6a)

record does not indicate that Guenther had any
further communication with LMC regarding his
pension plan for more than three years.
In 2009, Guenther spoke with another LMC
employee who was hired several months before him.
That employee indicated that he, like Guenther, had
received a similar letter promising bridging but was
later informed that his credited service under the
Plan would not bridge. After speaking with his
manager, Guenther contacted the ESC again in
March 2010 but received no information regarding
the specifics of his plan. However, the ESC did
discuss information from a Plan Amendment
provision with him, stating that employees “[n]ewly
or rehired on or after January 1, 2006 will not
participate in [the] defined pension benefit plan.” He
later asked the legal department for a point of
contact but was again told to contact HR.
Guenther never received additional credited
service for his third period of employment with LMC,
leaving his years of credited service at 11.5.
Guenther was never given a plan summary or any
other indication that he could appeal the issue to
anyone other than those he had already contacted.
On November 8, 2010, Guenther filed his
complaint (“FAC”) against LMC alleging breach of
contract and ERISA claims to recover benefits, and
the case was removed to federal court. The district
court dismissed his breach of contract claim and
granted summary judgment on the ERISA claim in
favor of LMC. On appeal, we affirmed the district
court’s determination, but remanded the case
(7a)

because Guenther alleged sufficient facts to raise a
previously unasserted ERISA claim against LMC for
breach of fiduciary duty under Section 1132(a)(3).
Guenther v. Lockheed Martin Corp., 646 F. App’x
567, 570 (9th Cir. 2016) (unpublished) (remanding to
consider “whether [LMC] breached a fiduciary duty
and, if so, whether Guenther is entitled to surcharge
as a remedy”).
On remand, Guenther filed a Second Amended
Complaint (“SAC”) pursuing the Section 1132(a)(3)
claim for equitable relief in the form of surcharge –
that is, monetary recovery for losses resulting from a
fiduciary breach. See CIGNA Corp. v. Amara, 563
U.S. 421, 440-42 (2011) (recognizing equitable
estoppel, reformation, and surcharge as the three
types of equitable relief available under Section
1132(a)(3)). Guenther alleged LMC breached its
fiduciary duty “to make accurate and correct
representations concerning [Guenther’s] ability to
obtain additional service credit under the Plan after
rehire.” Specifically, he alleged LMC misrepresented
the Plan by inducing him (and allegedly others) to
return to work for LMC by “granting” his pre-hire
bridging application while failing to disclose to him
that the Plan Amendment barred him from bridging
his additional credited service. LMC raised an
affirmative defense that his claim was barred by the
statute of limitations governing breach of fiduciary
duty.
The district court granted LMC’s motion for
summary judgment, finding Guenther’s claim barred
by the statute of limitations. The court found that
(8a)

Guenther obtained “actual knowledge” of the breach
when he received the November Letter from LMC,
more than three years before he filed his claim. See
29 U.S.C. § 1113(2). The court concluded that
Guenther “unequivocally stated he understood the
November 7th letter to mean he was not entitled to a
pension benefit on re-employment with Lockheed,
and he knew from his online account he was not
accruing credit.” The court rejected Guenther’s
argument that disclosure of the Plan Amendment’s
existence was necessary for his breach claim to
accrue, instead relying on Guenther’s testimony that
when he received the November Letter he clearly
understood the effect of the Plan Amendment (i.e.,
his prior credited service would not bridge under the
Plan), and this understanding clearly conflicted with
LMC’s
representations
during
employment
negotiations and in the July Letter.
Guenther then moved for reconsideration, citing
previously unconsidered testimony from two fact
witnesses affiliated with LMC. Guenther argued that
these statements demonstrated the fraud and
concealment necessary to invoke ERISA’s six-year
statute of limitations, rendering his claim timely. The
court denied Guenther’s request for reconsideration
because the evidence could have been discovered
earlier with reasonable diligence, no circumstances
beyond his control prevented him from obtaining it,
and the testimony would not have changed the
disposition of the case. This timely appeal followed.
After oral argument, we vacated submission and
stayed this case pending a decision by the Supreme
(9a)

Court in Intel Corporation Investment Policy
Committee v. Sulyma, 140 S. Ct. 768 (2020). In
Sulyma, the Supreme Court affirmed the Ninth
Circuit’s determination that “actual knowledge”
under Section 1113(2) requires more than “‘merely a
possible inference from ambiguous circumstances’”
like disclosure alone, but rather knowledge that is
actual. Sulyma, 140 S. Ct. at 775 (quoting Sulyma v.
Intel Corp. Inv. Policy Comm., 909 F.3d 1069, 1076
(9th Cir. 2018)).
II
Congress enacted ERISA “to protect … the
interests of participants in employee benefit plans …
by establishing standards of conduct, responsibility,
and obligation for fiduciaries of employee benefit
plans, and by providing for appropriate remedies,
sanctions, and ready access to the Federal courts.”
29 U.S.C. § 1001(b). ERISA requires a fiduciary to
discharge its responsibilities “solely in the interest of
the participants and beneficiaries” and “for the
exclusive purpose of … providing benefits to
participants and their beneficiaries.” § 1104(a)(1).
Fiduciaries breach this duty “if they mislead plan
participants or misrepresent the terms or
administration of a plan.” Barker v. Am. Mobil Power
Corp., 64 F.3d 1397, 1403 (9th Cir. 1995).
Additionally, “[t]he duty of loyalty is one of the
common law trust principles that apply to ERISA
fiduciaries, and it encompasses a duty to disclose.”
Washington v. Bert Bell/Pete Rozelle NFL Ret. Plan,
504 F.3d 818, 823 (9th Cir. 2007) (internal citation
and footnote omitted). ERISA imposes “an obligation
(10a)

to convey complete and accurate information
material to the beneficiary’s circumstance, even
when a beneficiary has not specifically asked for the
information.” Id. at 824-25 (quoting Barker, 64 F.3d
at 1403). Thus, in addition to a duty not to mislead,
fiduciaries have “an affirmative duty to inform
beneficiaries of circumstances that threaten the
funding of benefits.” Acosta v. Pac. Enters., 950 F.2d
611, 619 (9th Cir. 1991) (as amended).
ERISA authorizes participants and beneficiaries
to seek equitable relief for violations of this duty.
§ 1132(a)(3). It imposes a six-year statute of
limitations commencing after either (1) the date of
the last action constituting a part of the breach or
violation, or (2) in the case of an omission, the latest
date on which the fiduciary could have cured the
breach or violation. § 1113(1). Alternatively, if the
plaintiff obtains “actual knowledge of the breach or
violation,” the statute of limitations requires suit to
be filed within three years of “the earliest date on
which the plaintiff had [that] knowledge,” § 1113(2),2
except in the case of “fraud or concealment,” where
suit may be filed within six years of the date of
discovery of the breach or violation, § 1113.
III
We review the district court’s order granting
summary judgment de novo. Sulyma, 909 F.3d at
2

If the plaintiff obtains actual knowledge of the breach or
violation, his three-year limitation period described in Section
1113(2) applies only if it expires earlier than the default sixyear limitation period outlined in Section 1113(1). § 1113.

(11a)

1072, aff’d, Sulyma, 140 S. Ct. 768. “[V]iewing the
evidence in the light most favorable to the
nonmoving party,” we determine “whether there are
any genuine issues of material fact and whether the
district court correctly applied the substantive law.”
Id. LMC bears the burden of proving that Guenther
filed suit outside the limitation period. See Payan v.
Aramark Mgmt. Servs. Ltd. P’ship, 495 F.3d 1119,
1122 (9th Cir. 2007).
At the heart of this dispute is whether Guenther
had “actual knowledge” of an alleged fiduciary
breach within the meaning of ERISA Section
1113(2). To determine a claim’s accrual date under
Section 1113, we use a two-step analysis. First, we
“isolate and define the underlying violation upon
which the plaintiff’s claim is founded.” Sulyma, 909
F.3d at 1072-73 (internal quotation marks omitted).
Second, we determine “when the plaintiff had ‘actual
knowledge’ of the alleged breach or violation,” and
whether suit was filed within three years of the date
that knowledge was obtained. Id. at 1073 (quoting
§ 1113(2)).
Even if LMC shows Guenther had actual
knowledge, he may still demonstrate LMC
committed “fraud or concealment” under Section
1113, triggering a six-year limitation period that
would render his claim timely. See § 1113.
A
As an initial matter, Guenther argues LMC
waived its statute of limitations affirmative defense
by (1) litigating the case to judgment without ever
(12a)

raising the defense and (2) compelling him to exhaust
administrative remedies without asserting the
defense. We disagree.
First, the statute of limitations defense was
unavailable to LMC in response to Guenther’s FAC
because no breach of fiduciary duty was alleged in
the FAC. LMC’s statute of limitations defense under
Section 1113 only became available on remand after
Guenther raised his breach of fiduciary duty claim in
his SAC. At that point, LMC properly raised its
affirmative defense in its answer to the SAC. LMC
thus did not waive its right to raise this defense by
not doing so in its initial answer.
Second, Guenther’s argument that LMC waived
the statute-of-limitations defense by advocating that
Guenther exhaust administrative procedures also
fails. Exhaustion is required prior to bringing
Section 1132(a)(1)(B) suits to recover benefits for
plan violations, see Diaz v. United Agric. Emp.
Welfare Benefit Plan & Trust, 50 F.3d 1478, 1483
(9th Cir. 1995), but not for claims alleging a breach
of fiduciary duty, see Spinedex Physical Therapy
USA Inc. v. United Healthcare of Ariz., Inc., 770 F.3d
1282, 1294 (9th Cir. 2014). LMC’s insistence on
exhaustion in response to Guenther’s FAC – which
did not raise a breach of fiduciary duty claim – thus
did not mean the defense was waived for the SAC.
Accordingly, the district court did not abuse its
discretion in determining LMC did not waive its
statute of limitations affirmative defense.

(13a)

B
Guenther’s sole cause of action in his SAC is for
“Breach of Fiduciary Duty” under Section 1132(a)(3).
Specifically, Guenther alleges that LMC breached its
duty by failing, in the July Letter granting his prehire bridging application, “to make accurate and
correct representations concerning his ability to
obtain additional service credit under the Plan after
rehire.” Guenther asserts LMC not only made an
inaccurate affirmative representation in response to
his inquiry whether his “prior periods of Lockheed/
Lockheed Martin service [would] be bridged with
[his] proposed current Lockheed Martin service,” but
also failed to disclose the existence of the 2005 Plan
Amendment, which barred him from obtaining
additional credited service under the Plan.
The facts as Guenther pled them in the SAC are
sufficient to support the claim that when LMC sent
the July Letter, it breached its fiduciary duty to not
“mislead plan participants or misrepresent the terms
or administration of a plan,” Barker, 64 F.3d at 1403.
LMC allegedly falsely represented to Guenther
that he could bridge his prior and future credited
service under the Plan, even though the Plan
Amendment
explicitly
prevented
him
from
“becom[ing] an active Participant or earn[ing]
Credited Service under the Plan” upon rejoining LMC.
This alleged misrepresentation took place when LMC
sent the July Letter.3
3

At the summary judgment stage, we view all facts “in the
light most favorable” to Guenther. See Sulyma, 909 F.3d at 1072.

(14a)

Guenther separately contends, however, that
LMC’s failure to disclose the Plan Amendment to
Guenther “until 2010 at the earliest” constitutes a
“breach” distinct from its asserted misrepresentation
in the July Letter, and that this breach continued
after the time LMC sent the July Letter. He argues
this continuing breach should extend his Section 1113
limitation period. We agree with Guenther that
LMC had a fiduciary “duty to disclose” the Plan
Amendment’s existence to him when he began the
process of renewing employment at LMC (or at a
minimum, its effect of barring his bridging request).
See NFL Ret. Plan, 504 F.3d at 823. However, this
alleged breach is not a continuing breach for purposes
of Section 1113, separate from the alleged
misrepresentation in the July Letter. Once a
beneficiary knows of one breach in a series of
breaches “of the same character … awareness of [the]
later breaches would impart nothing materially new.”
Phillips v. Alaska Hotel & Rest. Emps. Pension Fund,
944 F.2d 509, 520 (9th Cir. 1991). “The earliest date
on which a plaintiff became aware of any [such]
breach would thus start the limitation period of
§ 1113(a)(2) running.” Id. (emphasis added). Failure
to disclose the Plan Amendment was “of the same
character,” id., as the alleged misrepresentation in
the July Letter. This is because knowledge of the Plan
Amendment was only useful to Guenther insofar as it
We note that the July Letter did not expressly state that
Guenther could continue to accrue additional credited service
under the Plan, and LMC contends that Guenther received a
form of bridging because his prior period of service was included
when determining certain benefits under the newly instituted
CAP, although not for accrual of credited service under the Plan.

(15a)

would have informed him that his prior credited
service could not be bridged. The district court thus
correctly determined that once Guenther received the
November Letter, Guenther’s subsequent knowledge
of the Plan Amendment’s existence “impart[ed]
nothing new” to him.4
Because Guenther asserts no separate underlying
violation beyond breach of fiduciary duty, LMC’s act
of sending the July Letter to Guenther is the
violation providing the basis for his equitable
surcharge claim. See Sulyma, 909 F.3d at 1072-73.
LMC has thus met its burden of showing that the
alleged underlying violation occurred on July 25,
2006. We therefore look at that violation for purposes
of determining Guenther’s “actual knowledge.”

4

Even assuming Guenther’s SAC alleges a separate breach
of a different character (i.e., continuing failure to disclose the
Plan Amendment’s existence), his legal theory fails. Under this
theory, his cause of action for LMC’s ongoing failure to disclose
could have accrued even after he obtained actual knowledge of
the breach if he had learned about the Plan Amendment from
sources other than LMC, because LMC’s ongoing fiduciary duty
to disclose the Plan Amendment’s existence to him would have
continued until LMC fulfilled its duty to disclose it to him. We
decline to adopt such an impractical and untenable “continuing
violation” approach to the statute, which would effectively
“read[] the ‘actual knowledge’ standard out” of Section
1113(a)(2). See Phillips, 944 F.2d at 520. LMC may have had a
duty to remedy its failure to disclose after Guenther received
the July Letter with its alleged misrepresentation. But that
does not change the fact that a breach of the duty to disclose at
least happened on July 25, 2006, and that Guenther was aware
of the effect of this breach on November 7, 2006, as discussed
further below.

(16a)

C
The Section 1113 limitation period begins to run
as soon as “the plaintiff has sufficient knowledge to
be to be alerted to the particular claim.” Sulyma, 909
F.3d at 1076. “This inquiry into the plaintiff’s actual
knowledge is entirely factual, requiring examination
of the record.” Id. at 1073 (citation and alterations
omitted).
ERISA does not define “actual knowledge.” But
the Supreme Court recently confirmed that the plain
language of Section 1113(2) requires that an
individual “in fact be aware” of a piece of information
(particularly given the statute’s use of the qualifier
“actual”). Sulyma, 140 S. Ct. at 776. This knowledge
is distinguished from lower knowledge thresholds
like presumed, implied, or constructive knowledge,
where the law will sometimes impute knowledge of
facts to a person when a reasonably diligent person
would have (or should have) learned them. Id.
Instead, actual knowledge under Section 1113(2)
requires that a plaintiff’s knowledge “be more than
‘potential, possible, virtual, conceivable, theoretical,
hypothetical, or nominal.’” Id. (quoting Black’s Law
Dictionary 53 (4th ed. 1951)). And while constructive
knowledge is insufficient to meet the actual
knowledge threshold, “actual knowledge can be
proved through ‘inference from circumstantial
evidence.’” Id. at 779 (quoting Farmer v. Brennan,
511 U.S. 825, 842 (1994)).
Regarding what facts a defendant must show that
a plaintiff was aware of, “actual knowledge of the
breach” (1) “does not mean that a plaintiff has
(17a)

knowledge that the underlying action violated
ERISA” and (2) “does not merely mean that a
plaintiff has knowledge that the underlying action
occurred.” Sulyma, 909 F.3d at 1075. Instead, a
defendant’s burden is to show “the plaintiff [was]
actually aware of the facts constituting the breach,
not merely that those facts were available to the
plaintiff,” as well as something “extra,” meaning that
that the plaintiff “was actually aware of the nature of
the alleged breach.” Id. at 1075-76 (emphasis
added).5 “The key is that, whatever the underlying
ERISA claim, the limitation period begins to run
once the plaintiff has sufficient knowledge to be
alerted to the particular claim.” Id. at 1076.
A defendant’s disclosure of all relevant
information to a plaintiff strongly suggests that the
plaintiff gained knowledge of the disclosed
information. Sulyma, 140 S. Ct. at 777. To meet the
actual knowledge threshold though, Section 1113(2)
“requires more than evidence of disclosure alone.” Id.
For example, circumstantial evidence that “a
plaintiff viewed the relevant disclosures” coupled
with “evidence suggesting that the plaintiff took
action in response to the information contained in
them” could be sufficient to prove actual knowledge

5

“For instance, in a section 1104 case, the plaintiff must be
aware that the defendant has acted and that those acts were
imprudent. But in, for example, a section 1106 case the plaintiff
need only be aware that the defendant has engaged in a
prohibited transaction, because knowledge of the transaction is
all that is necessary to know that a prohibited transaction has
occurred.” Sulyma, 909 F.3d at 1075 (internal citation omitted).

(18a)

even if a plaintiff denies knowledge of the disclosure.
Id. at 779.6
Here, direct evidence demonstrates Guenther had
actual knowledge of LMC’s alleged breach of its
fiduciary duty more than three years before this
action was filed. Guenther’s deposition confirms he
was fully aware upon receiving the November Letter
that LMC had misrepresented in its July Letter that
it would bridge his previously accrued credited
service. For instance, Guenther testified: “I didn’t
find out that I’m not in the pension fund until I got a
letter in November that Lockheed said, Oh, by the
way, we didn’t mean pension plan when we told you
pension plan in the earlier [July] letter that was your
basis for why you came back.” He thus understood
the November Letter’s representation to be
“[c]ompletely opposite of the first letter,” and even
asserted it was “obvious” that LMC contradicted
itself in the two letters. When asked whether he
understood at the time he read the November Letter
that he was no longer able to participate in the Plan,
he answered affirmatively that “[u]nfortunately,
I understood what they were saying, yeah,” namely,
“[a]t that point, I wasn’t in any plan.”7 His testimony
6

“If a plaintiff’s denial of knowledge is blatantly contradicted
by the record, a court should not adopt that version of the facts
for purposes of ruling on a motion for summary judgment.”
Sulyma, 140 S. Ct. at 779 (internal quotation marks omitted).
7
When asked whether receiving the November Letter
answered his question whether he was accumulating new time
on the Plan, Guenther answered: “Yes. Not the way it was
supposed to, but … That was an answer.” Driving this point
home even further, Guenther also testified: “It’s very clear in the
first letter, pension plan is called out. Second letter, it says,

(19a)

thus confirms that on November 7, 2006, he was
aware of the nature of LMC’s alleged breach, even if
he didn’t know that LMC’s actions violated ERISA
specifically. See Sulyma, 909 F.3d at 1075. This
qualifies as actual knowledge for purposes of Section
1113.
Circumstantial evidence of Guenther’s actions
taken before and after receiving the November
Letter bolsters the conclusion that he had actual
knowledge of LMC’s alleged misrepresentation upon
receipt of the November Letter. Guenther could have
only viewed the November Letter to be a
misrepresentation if he first interpreted the July
Letter to mean he could bridge his prior credited
service under the Plan as he asserts (rather than just
under the CAP). Circumstantial evidence supports
his assertion: while negotiating with the LMC
recruiter earlier that year, the fact that Guenther
explicitly stated that bridging his credited service
under the Plan was a “key condition[]” of his return,
coupled with the fact that receiving the July Letter
was apparently sufficient for him to end his existing
employment in reliance on its representation,
suggests that he understood the July Letter to mean
he could bridge his prior credited service under the
Plan upon his return to LMC.
More importantly, after starting at LMC,
Guenther regularly checked his account online to see
if he was accumulating additional credited service
under the Plan (he was not),8 but stopped checking
You’re not in the pension plan.”
8
Guenther testified that “when I’d go on the web and look”

(20a)

after receiving the November Letter. This behavior
suggests he no longer maintained his expectation
that his prior credited service would bridge under
the Plan after receiving the November Letter.
Finally, Guenther contacted various company HR
representatives immediately after receiving the
November Letter, indicating his concern LMC had
made a misrepresentation to him, causing him to
urgently seek clarification regarding the status of his
pension.
Guenther argues that under Waller v. Blue Cross
of California, 32 F.3d 1337 (9th Cir. 1994), he could
not have had actual knowledge until he understood
the Plan Amendment had ended accrual of credited
service for employees rehired after January 1, 2006.
However, Waller is distinguishable because in that
case the beneficiary only knew that the fiduciaries
had purchased annuities for the employee benefits
plan (not inherently a breach of fiduciary duty), but
did not know they had used an infirm bidding
process to select the annuity providers. Id. at 1341,
1345-46. Accordingly, the beneficiary’s partial
knowledge was insufficient to rise to the level of
actual knowledge of a breach. Id. at 1341-42. Here,
by contrast, Guenther testified he was fully aware at
the time he received the November Letter that
during the period of time prior to receiving the November
Letter, “[t]here was no years of service being added to my prior
years of service for the pension plan,” and this concerned him.
He also stated that in October 2006, after he decided he had
waited “long enough [because] they should be putting money
into the pension plan and nothing’s happening,” he got “on the
phone calling State Street and Lockheed saying, [‘]What the
heck is going on here?[’]”

(21a)

LMC’s representation in the July Letter was not
accurate.
We also reject Guenther’s argument that the
three-year limitation period should start running on
a later date based on LMC’s separate alleged breach
of its fiduciary duty to disclose the Plan Amendment
to him. The district court correctly determined that
the effect of the Plan Amendment (i.e., preventing
bridging of his prior credited service) is what
mattered to Guenther, rather than the Plan
Amendment’s existence, and the November Letter
“related the effect of the 2005 plan amendment, and
[Guenther] stated he understood it.”9 His awareness
from the November Letter was thus also sufficient to
trigger the three-year limitation period for the
alleged breach of LMC’s duty to disclose, even
without specific knowledge of the Plan Amendment’s
existence per se. We need not determine whether
LMC breached its duty to disclose exclusively with
the July Letter, or continuously thereafter as
Guenther contends, because either way the date he
obtained actual knowledge of the effect of that
breach remains the same: November 7, 2006. See
Phillips, 944 F.2d at 520 (“The earliest date on which
a plaintiff became aware of any breach [of the same
character in a series of breaches] would thus start
9

In any event, by the time he received the November
Letter, Guenther knew that “information material to [his]
circumstance,” Barker, 64 F.3d at 1403, had been concealed
from him, either in the July Letter or the November Letter,
regarding whether LMC would allow him to bridge his prior
accrued credited service. At a minimum, therefore, he was
aware of the “nature of [LMC’s] alleged breach” of its duty to
disclose. See Sulyma, 909 F.3d at 1075.

(22a)

the limitation period of § 1113(a)(2) running.”).
Accordingly, even if he didn’t learn about the Plan
Amendment’s existence until his 2010 phone call
with the ESC, that knowledge “impart[ed] nothing
materially new” to him beyond the November Letter,
and is not the “earliest date on which [he] became
aware of any breach[.]” See id. (emphasis added).
Because Guenther failed to bring suit within
three years of November 7, 2006 (the earliest date he
had actual knowledge of LMC’s alleged breach of its
fiduciary duty), his suit is barred by ERISA’s statute
of limitations. See § 1113(2).
D
Alternatively, Guenther claims that even if he
had actual knowledge of the breach, because LMC
engaged in fraud via the July Letter and
concealment via LMC’s failure to disclose the Plan
Amendment “both prior to and after the July 25,
2006 Letter,” ERISA’s six-year limitation period
applies instead of the three-year period. See § 1113.
Our circuit has held that this exception only
applies when a defendant has “taken steps to hide
[its] breach of fiduciary duty.” Barker, 64 F.3d at
1402 (emphasis added). Under this approach,
incorporated from the common law doctrine of
fraudulent concealment, a plaintiff must establish
“affirmative conduct upon the part of the defendant
which would, under the circumstances of the case,
lead a reasonable person to believe that he did not
have a claim for relief.” Id. (internal quotation marks
and emphasis omitted). Plaintiff bears the burden of
(23a)

pleading and proving that such affirmative acts
occurred. See Hexcel Corp. v. Ineos Polymers, Inc.,
681 F.3d 1055, 1060 (9th Cir. 2012).
To be sure, Guenther has set forth facts
suggesting that LMC misrepresented his ability to
bridge his terms of service, and failed to disclose
material information regarding the same while
Guenther was negotiating renewed employment with
LMC. But his claim does not rise to the level of
“fraud or concealment” under our precedent.
Guenther has failed to produce any evidence that
LMC made “knowingly false misrepresentations with
the intent to defraud” Guenther when it sent him the
July Letter, see Barker, 64 F.3d at 1401, much less
evidence of affirmative acts taken by LMC to hide
that misrepresentation as required in our circuit, see
id. at 1402. Mere failure to disclose the Plan
Amendment’s existence does not demonstrate that
LMC hid its breach from Guenther. Evidence that
Guenther was “bounced … from one department to
another, never answering his questions” over the
course of several years is indicative of bureaucratic
inefficiency, but does not on its own rise to the level
of affirmative concealment.10 Absent the necessary
10

Guenther argues in the alternative that even if LMC’s
continuing failure to disclose the Plan Amendment does not
qualify as a separate affirmative act of concealment, the July
Letter was a “self-concealing act” with the concealment
committed in the course of the underlying wrong itself, thus
satisfying the fraud or concealment exception on its own. We
agree with the district court that the facts constituting the
claim for breach of fiduciary duty alone cannot also serve as the
basis for fraud or concealment – otherwise, the exception would
swallow the rule. Instead, a defendant must take affirmative

(24a)

record evidence, Guenther’s argument for application
of the fraud or concealment exception fails.
Accordingly,
the
district
court
correctly
determined ERISA’s six-year limitation period for
fraud or concealment does not apply to Guenther’s
claim.
IV
The district court’s order denying Guenther’s postjudgment motion for reconsideration of summary
judgment is reviewed for abuse of discretion.
Latshaw v. Trainer Wortham & Co., 452 F.3d 1097,
1100 (9th Cir. 2006). “Judgment is not properly
reopened absent highly unusual circumstances,
unless the district court is presented with newly
discovered evidence, committed clear error, or if
there is an intervening change in the controlling
law.” Weeks v. Bayer, 246 F.3d 1231, 1236 (9th Cir.
2001) (internal quotation marks omitted).
Guenther fails to show how the new deposition
testimony he obtained from two witnesses affiliated
with LMC rises to the level of “highly unusual
circumstances,” nor does he cite any circumstances
beyond his control which prevented him from
obtaining and producing the deposition testimony of
LMC officials for the district court’s review before it
issued its summary judgment order. Instead of
raising the kind of newly discovered evidence that
steps “beyond the breach itself [with] the effect of concealing
the breach from its victims.” In re Unisys Corp. Retiree Med.
Benefit ERISA Litig., 242 F.3d 497, 503 (3d Cir. 2001).

(25a)

would merit reconsideration, Guenther is using
Federal Rules of Civil Procedure 59(e) and 60(b) to
“relitigate old matters, or to raise arguments or
present evidence that could have been raised prior to
the entry of judgment.” Exxon Shipping Co. v. Baker,
554 U.S. 471, 485 n.5 (2008) (citation omitted).
The district court therefore did not abuse its
discretion by denying Guenther’s motion for
reconsideration.
*

*

Because Guenther
LMC’s alleged breach of
to bring suit within
limitation period under
barred.

*

had actual knowledge of
its fiduciary duty, yet failed
the applicable three-year
ERISA, his action is time-

AFFIRMED.

(26a)

APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION

CHARLES GUENTHER,
Plaintiff,

Case No.
5:11-cv-00380EJD

v.
LOCKHEED MARTIN
CORPORATION, et al.,
Defendants.

ORDER
GRANTING
DEFENDANTS’
MOTION FOR
SUMMARY
JUDGMENT
Re: Dkt. No. 133

After a remand from the Ninth Circuit, Plaintiff
Charles Guenther (“Plaintiff”) alleges in this action
that Defendants Lockheed Martin Corporation and
Lockheed Martin Corporation Retirement Plan for
Certain Salaried Employees (the “Plan”)1 breached a
fiduciary duty in violation the Employee Retirement
Both Lockheed Martin Corporation and the Plan are
referred to collectively as “Lockheed” in this order.
1

(27a)

Income Security Act of 1974 (“ERISA”) by failing to
make accurate representations concerning Plaintiff’s
ability to “bridge” prior employment service credit
with future service credit.
Federal jurisdiction arises pursuant to 28 U.S.C.
§ 1331 and 1132(e). Presently before the court is
Lockheed’s Motion for Summary Judgment (Dkt. No.
133), which Plaintiff opposes.
Lockheed has successfully shown that Plaintiff’s
sole claim is barred by ERISA’s three year statute of
limitations, and Plaintiff has not satisfied his
responsive burden to produce evidence on which a
reasonable factfinder could conclude otherwise.
Thus, Lockheed is entitled to summary judgment for
the reasons explained below.
I.

BACKGROUND
A. Factual Background

After two prior employment periods, Plaintiff
began his most recent period of employment with
Lockheed on September 11, 2006. Depo. of Charles F.
Guenther (“Guenther Depo.”), Dkt. No. 134, at 16:2123; 124:17-19. It is undisputed that this period
commenced after the Plan had been amended in
2005, effective January 1, 2006, to unambiguously
state that “no person who is re-employed by
[Lockheed] on or after January 1, 2006, shall become
an active Participant or earn Credited Service under
the Plan with respect to any period commencing with
such reemployment.”
(28a)

Before Plaintiff was re-hired, he heard a “rumor”
that “Lockheed was going to be changing around
their plan.” Id. at 59:13-20; 121:21-122:5. On
February 22, 2006, Plaintiff sent an email to
Lockheed engineering manager Errol Modine in
which he wrote the following, in pertinent part:
[Department of Energy] is rebidding
contracts for the laboratories.
Lawrence
Berkeley
National
Laboratory (LBNL) was awarded
back to the University of California
over a year or so ago. Los Alamos
National Laboratory (LANL) was
recently awarded to a team
consisting of Bechtel, University of
California, and several other lesser
companies in terms of percentage
involvement. Lawrence Livermore
National Laboratory (LLNL) is to go
out for bids later this year early next
with contract award to take place
some time next year. At issue for
most of the vested employees is the
potential for changes to the
retirement system. Based on LANL
information, any changes to the
retirement system should not affect
current retirees and have minimal
impact, at this time, on employees
currently vested in the retirement
system. The changes at LANL seem
to be similar to those made at
[Lockheed] in the sense that the
(29a)

significant changes will affect new
employees or those coming back into
the laboratory.
Decl. of Clarissa A. Kang (“Kang Decl.”), at Ex. K.
Though Modine and Plaintiff engaged in an
exchange of messages after the February 22nd email,
Modine never commented on whether Plaintiff
accurately described changes to Lockheed’s
retirement plan. Id. Plaintiff did know, however, that
Modine was not involved in human resources at
Lockheed and did not have authority to speak on
behalf of the Plan. Guenther Depo., 25 at 122:6-8.
During Plaintiff’s subsequent interview at
Lockheed, he met with a human resources
representative and asked if Lockheed was “bridging
service.” Id. at 112:13-15. In response, Plaintiff was
given a “bridging form.” Id. at 112:16-21; Kang Decl.,
at Ex. F. The form was entitled “Application for
Bridging of Prior Service” and stated as follows:
If you have prior service with
Lockheed, Martin Marietta, General
Electric, General Dynamics, Loral,
Comsat or a company acquired by
one of these companies, you may be
eligible to have your prior service
bridged with your current period of
employment. If you have periods of
service that you believe may be
eligible for bridging, please complete
the information below. You should
(30a)

receive a written decision within
60 days.
…
The determination of whether an
employee’s service will be bridged for
pension or other purposes is
dependent upon the employee’s work
history, ERISA regulations, the
provisions of the pension plans,
merger agreements and Company
policies.
Kang Decl., at Ex G.
Plaintiff completed and submitted the bridging
application on July 17, 2006. Id. That same day,
Lockheed made an employment offer to Plaintiff, and
Plaintiff made a counter-offer to request a higher
salary and signing bonus. Depo. of Christy Lim Yee
(“Lim Yee Depo”), Dkt. No. 143, at 28:24-29:7.
Lockheed made a revised offer on July 25, 2006,
which Plaintiff accepted. Id.; Kang Decl., at Ex. H.
He signed the acceptance letter and dated it “7-2506.” Kang Decl., at Ex. H.
Plaintiff received a letter by regular mail from
Lockheed in response to his bridging application, also
dated July 25, 2006. Assuming a rehire date of July
31, 2006, the July 25th letter stated, in pertinent
part:
Since you were vested in a pension
benefit provided by the Lockheed
(31a)

Martin Corporation Retirement Plan
for Certain Salaried Employees, your
prior periods of Lockheed/Lockheed
Martin service will be bridged with
your proposed Lockheed Martin
service.
…
It should be noted that if you are
rehired by Lockheed Martin, you will
need to submit a new Application for
Bridging of Prior Service to ensure
that any necessary adjustments to
your employment service date and
pension records are made.
Kang Decl., at Ex. I.
Based on the July 25th letter and his
understanding of the term “bridging,” Plaintiff
concluded he would continue to participate in the
Plan and earn additional credited service for his
prior employment if he returned to Lockheed.
Guenther Depo., at 47:6-48:7; 115:4-14. Other than
the July 25th letter, Plaintiff does not recall any
other communications stating he would receive
credited service under the Plan. Id. at 48:4-7.
After re-starting employment with Lockheed in
September, 2006, Plaintiff submitted a new bridging
application, dated September 14, 2006, to account for
his actual start date as instructed by the July 25th
letter. Kang Decl., at Ex. J. Plaintiff also began
checking his online pension account but did not see
(32a)

any additional accumulation of credited service.
Guenther Depo., at 29:25-31:12
Plaintiff received a letter from Lockheed dated
November 7, 2006, in response to his September 14th
bridging application. This letter stated as follows, in
pertinent part:
For purposes of determining whether
your prior periods of Lockheed/
Lockheed Martin service will be
bridged with your current period of
employment, your rehire date is
September 11, 2006. Since you were
vested in a pension benefit provided
by the Lockheed Martin Corporation
Retirement
Plan
for
Certain
Salaried Employees, your prior
periods
of
Lockheed/Lockheed
Martin service will be bridged with
your current Lockheed Martin
service. Consequently, your accrued
benefit
under
the
Capital
Accumulation Plan has immediately
become vested because the combined
total of your Lockheed Martin
controlled group service exceeds five
years.
It should be noted that because you
are not currently participating in a
Lockheed Martin defined benefit
pension plan, you are not entitled to
a pension benefit from Lockheed
(33a)

Martin for your current period of
service.
Kang Decl., at Ex. J.
Plaintiff did not understand he was not “in the
pension fund” until he received the November 7th
letter. Guenther Depo., at 35:6-11. He contacted
Laurie Coomer from Lockheed Martin human
resources in 2007 to ask about the July 25th and
November 7th letters. Id. at 81:9-12; 82:17-19.
Coomer thanked Plaintiff for bringing the letters to
her attention and stated that Lockheed would try to
be more clear in the future. Id. at 81:13-15. Coomer
did not tell Plaintiff he would be able to participate
in the pension plan for his new period of
employment. Id. at 81:16-23.
Plaintiff also raised the letters with Lockheed
engineering manager Eric Escola in 2009, and with a
co-worker in 2009 or 2010. Id. at 86:17-25. Escola did
not comment on the letters and instead gave Plaintiff
the impression that Escola should not provide an
explanation. Id. at 81:24-82:8. The coworker told
Plaintiff he had received similar letters concerning
service “bridging.” Id. at 83:19-84:4.
B. Procedural Background
Plaintiff initiated this action in Santa Clara
County Superior Court on November 8, 2010, and
Lockheed removed it to this court on January 26,
2011. Plaintiff’s original and First Amended
Complaints asserted two causes of action, one under
ERISA (29 U.S.C. § 1132(a)(1)(B)), and one for
(34a)

breach of contract. The court dismissed the breach of
contract claim with prejudice, but stayed the
remainder of the case so that Plaintiff could exhaust
an administrative appeal. Dkt. No. 37.
The stay was extinguished on November 30, 2012
(Dkt. No. 43), and Lockheed filed motions for
summary judgment and adjudication. The court
granted both motions, determining that Lockheed’s
decision to deny Plaintiff “bridging” benefits was not
an abuse of discretion and that Plaintiff had not
proven equitable estoppel. Dkt. Nos. 84, 89.
Plaintiff appealed from the ensuing judgment,
and the Ninth Circuit affirmed in part and vacated
in part. Dkt. No. 103. Specifically, the Ninth Circuit
confirmed that Lockheed was entitled to summary
judgment on Plaintiff’s ERISA claim and on any
claim for equitable estoppel. However, the Ninth
Circuit also held that Plaintiff alleged sufficient facts
to make out a claim under another, previouslyunasserted section of ERISA, 29 U.S.C. § 1132(a)(3),
and vacated the judgment on that ground. The Ninth
Circuit remanded the action to this court “to consider
whether [Lockheed] breached a fiduciary duty and,
if so, whether [Plaintiff] is entitled to surcharge as
a remedy.”
Upon return to the district court, Plaintiff filed a
Second Amended Complaint (“SAC”) on 28 December
12, 2016, asserting one cause of action for breach of
fiduciary duty and seeking the equitable remedy of
surcharge. Dkt. No. 116. The court denied Lockheed’s
motion to dismiss that pleading. Dkt. No. 131. This
motion followed.
(35a)

II. LEGAL STANDARD
A motion for summary judgment or partial
summary judgment should be granted if “there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a); Addisu v. Fred Meyer, Inc., 198
F.3d 1130, 1134 (9th Cir. 2000).
The moving party bears the initial burden of
informing the court of the basis for the motion and
identifying the portions of the pleadings, depositions,
answers to interrogatories, admissions, or affidavits
that demonstrate the absence of a triable issue of
material fact. Celotex Corp. v. Catrett, 477 U.S. 317,
323 (1986). If the issue is one on which the
nonmoving party must bear the burden of proof at
trial, the moving party need only point out an
absence of evidence supporting the claim; it does not
need to disprove its opponent’s claim. Id. at 325.
If the moving party meets the initial burden, the
burden then shifts to the non-moving party to go
beyond the pleadings and designate specific
materials in the record to show that there is a
genuinely disputed fact. Fed. R. Civ. P. 56(c); Celotex
Corp., 477 U.S. at 324. A “genuine issue” for trial
exists if the non-moving party presents evidence
from which a reasonable jury, viewing the evidence
in the light most favorable to that party, could
resolve the material issue in his or her favor.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248-49
(1986).

(36a)

The court must draw all reasonable inferences in
favor of the party against whom summary judgment
is sought. Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S. 574, 587 (1986). However, the
mere suggestion that facts are in controversy, as well
as conclusory or speculative testimony in affidavits
and moving papers, is not sufficient to defeat
summary judgment. Id. (“When the moving party
has carried its burden under Rule 56(c), its opponent
must do more than simply show that there is some
metaphysical doubt as to the material facts.”);
Thornhill Publ’g Co. v. GTE Corp., 594 F.2d 730, 738
(9th Cir. 1979). Instead, the non-moving party must
come forward with admissible evidence to satisfy the
burden. Fed. R. Civ. P. 56(c).
“If the nonmoving party fails to produce enough
evidence to create a genuine issue of material fact,
the moving party wins the motion for summary
judgment.” Nissan Fire & Marine Ins. Co. v. Fritz
Cos., Inc., 210 F.3d 1099, 1103 (9th Cir. 2000). “But
if the nonmoving party produces enough evidence to
create a genuine issue of material fact, the
nonmoving party defeats the motion.” Id.
III. DISCUSSION
As noted, Plaintiff asserts one cause of action for
breach of fiduciary duty. The SAC is based on the
theory that Lockheed owed Plaintiff a fiduciary duty
“as a vested participant to make accurate and correct
representations concerning his ability to obtain
service credit under the Plan after rehire,” and that
Lockheed breached that duty when it did not disclose
(37a)

the 2005 plan amendment barring him from
“bridging” additional service credit. SAC, at ¶¶ 3437. Lockheed argues there is no dispute of material
fact that Plaintiff’s cause of action is untimely. On
this record, the court agrees.
A. Governing Authority
“ERISA protects employee pensions and other
benefits by providing insurance … , specifying
certain plan characteristics in detail … , and by
setting forth certain general fiduciary duties
applicable to the management of both pension and
nonpension benefit plans.” Varity Corp. v. Howe, 516
U.S. 489, 496 (2011). For the latter category, ERISA
requires a plan fiduciary to discharge duties “solely
in the interest of the participants and beneficiaries,”
with the “exclusive purpose” of providing benefits
and defraying reasonable administration expenses.
29 U.S.C. § 1104(a)(1)(A). With those goals in mind,
ERISA mandates fiduciaries act “with the care, skill,
prudence, and diligence under the circumstances
then prevailing that a prudent man acting in a like
capacity and familiar with such matters would use in
the conduct of an enterprise of a like character and
with like aims.” 29 U.S.C. § 1104(a)(1)(B).
Fiduciaries who breach their statutory duties can
be “personally liable to make good to such plan any
losses to the plan resulting from each such breach,
and to restore to such plan any profits of such
fiduciary which have been made through use of assets
of the plan by the fiduciary, and shall be subject to
such other equitable or remedial relief as the court
may deem appropriate.” 29 U.S.C. § 1109(a).
(38a)

Consequently,
ERISA
permits
participants,
beneficiaries or fiduciaries to bring an action against
a plan to enjoin any act or practice which violates
ERISA or the plan terms, or to obtain “other
appropriate equitable relief.” 29 U.S.C. § 1132(a)(3).
These “‘catchall’ provisions act as a safety net,
offering appropriate equitable relief for injuries
caused by violations” that cannot be remedied
through other sections of ERISA. Varity Corp., 516
U.S. at 512.
B. Statute of Limitations
Claims under ERISA are generally subject to
the three-year statute of limitations provided by
29 U.S.C. § 1113, which begins to run “after the
earliest date on which the plaintiff had actual
knowledge of the breach or violation.” The Ninth
Circuit employs a two-step analysis to determine a
claim’s accrual date under § 1113: “first, when did
the alleged ‘breach or violation’ occur; and second,
when did [the plaintiff] have ‘actual knowledge’ of
the breach or violation?” Ziegler v. Conn. Gen. Life
Ins. Co., 916 F.2d 548, 550 (9th Cir. 1990).
Importantly, however, “an ERISA plaintiff’s cause of
action cannot accrue and the statute of limitations
cannot begin to run until the plaintiff has actual
knowledge of the breach, regardless of when the
breach actually occurred.” Id. at 552; Landwehr v.
DuPree, 72 F.3d 726, 732 (9th Cir. 1995) (“[T]he
limitations period in an ERISA action begins to run
on the date that the person bringing suit learns of
the breach or violation.”).

(39a)

Additionally, it is important to observe that
§ 1113 contains an exception to the three-year
statute of limitations for ERISA claims involving
fraud or concealment, which “applies the federal
common law discovery rule to ERISA breach of
fiduciary duty claims.” Kurz v. Phila. Elec. Co., 96
F.3d 1544, 1552 (3d Cir. 1996). Those claims must be
“commenced not later than six years after the date of
discovery of such breach or violation.” 29 U.S.C.
§ 1113. A fiduciary can engage in “fraud or
concealment” for the purposes of the six-year statute
“either by misrepresenting the significance of facts
the beneficiary is aware of (fraud) or by hiding facts
so that the beneficiary never becomes aware of them
(concealment).” Radiology Ctr., S.C. v. Stifel,
Nicolaus & Co., 919 F.2d 1216, 1220 (7th Cir. 1990);
accord Barker v. Am. Mobil Power Corp., 64 F.3d
1397, 1401 (9th Cir. 1995) (holding the fraud and
concealment exception applies if the fiduciary “made
knowingly false misrepresentations with the intent
to defraud” or took “affirmative steps … to conceal
any alleged fiduciary breaches”).
C. Application
i.

The Three-Year Statute of
Limitations

Lockheed argues § 1113’s three-year statute of
limitations precludes Plaintiff’s cause of action for
breach of fiduciary duty. Since a statute of
limitations is properly raised as an affirmative
defense, Lockheed must bear the burden of proving
there is no dispute of material fact that Plaintiff filed
outside the permissible period. See Payan v.
(40a)

Aramark Mgmt. Servs. Ltd. P’ship, 495 F.3d 1119,
1122 (9th Cir. 2007). Lockheed attempts to do so by
showing (1) the alleged breach of fiduciary duty
occurred no later than July, 2006, when Lockheed
did not disclose in its letter to Plaintiff the 2005 plan
changes and its effect on Plaintiff’s pension rights
upon re-hire, and (2) Plaintiff had actual knowledge
of the breach in November, 2006, when he received
the second letter from Lockheed. The record supports
these contentions.
a. The Date of the Violation
As to the first issue, the violation underlying
Plaintiff’s claim must be isolated and defined.
Ziegler, 916 F.2d at 550-51. In doing so, the court
observes that “an ERISA plaintiff may prosecute a
plan fiduciary who fails to perform for the exclusive
benefit of participants and their beneficiaries
regardless of cost or loss to the participants and their
beneficiaries. Id. at 551. The date on which a
plaintiff suffered harm is irrelevant, “except as the
circumstances may shed light on when [the plaintiff]
gained actual knowledge of the alleged breach or
violation.” Id. at 552.
Here, Plaintiff’s breach claim is based on the
contention that Lockheed failed to disclose a 2005
plan amendment that excluded rehired employees
from accruing additional credited service for pension
benefits, and failed to provide accurate information
concerning the amendment’s effect on him. Thus, the
relevant violation occurred, at the earliest, on the
date the plan was amended in 2005 or when it
became effective in 2006, but was not also disclosed
(41a)

to Plaintiff. Indeed, Plaintiff’s own expert opines that
Lockheed had a fiduciary obligation to notify
Plaintiff of the change even though he was not
employed by Lockheed in 2005. Decl. of Mark
Johnson, Dkt. No. 141, at ¶ 19.
At the latest, the underlying violation occurred on
July 25, 2006, when, in response to Plaintiff’s
request for information, Lockheed sent Plaintiff a
letter stating his prior years of service would be
“bridged” with a new term of employment, even
though the 2005 plan amendment stated otherwise.
The parties agree this date is a relevant one for
determining the date of alleged breach, though they
frame it differently in their pleadings. Defs.’ Mot.,
Dkt. No. 133, at 13:24-25 (describing the July 25th
letter as “the alleged violation” and “the alleged
misrepresentation”); Pl.’s Opp’n, Dkt. No. 137, at
13:12-16 (describing the July 25th letter as a
“separate affirmative act of fraud” that “completely
concealed Lockheed’s illegal failure to disclose the
Plan Amendment”).
Plaintiff suggests that additional violations
continued to occur after July 25, 2006. To that end,
he argues that “the underlying breaches of fiduciary
duty occurred both prior to and after the July 25,
2006 letter,” and that from “November 2006 to
October 2010, Lockheed continued to conceal the real
reason for the denial letter despite [Plaintiff’s]
repeated attempts to find out whether the grant
letter of July 2006 was correct.” But the Ninth
Circuit has held that once a plaintiff knows of one
breach in a series of like breaches, “awareness of the
(42a)

later breaches would impart nothing new.” Phillips v.
Alaska Hotel & Rest. Emps. Pension Fund, 944 F.2d
509, 520 (9th Cir. 1991). Consequently, the § 1113
statute of limitations begins to run from the earliest
date on which a plaintiff became aware of any
breach. Id. Since it will be established below that
Plaintiff knew the July 25th letter constituted a
breach no later than November, 2006, the court
rejects the implicit argument that Lockheed’s alleged
failure to disclose the 2005 plan amendment after
July 25, 2006, somehow constitutes a series of
ongoing breaches or a “continuing violation” that
precluded expiration of the statute of limitations.
In sum, Lockheed has satisfied its burden to show
that the underlying violation occurred no later than
July 25, 2006, and Plaintiff did not submit sufficient
counter-evidence to materially dispute that fact.
b. Plaintiff’s Actual Knowledge
Having isolated and defined the breach, the court
must now determine when Plaintiff had actual
knowledge of it. “This inquiry is … entirely factual,
requiring examination of the record.” Ziegler, 916
F.2d at 552. For the purposes of applying § 1113’s
statute of limitations, “actual knowledge” is deemed
imparted, and the claim accrues, once the individual
knows of the violation and knows of its harmful
effect. See id.
Lockheed argues Plaintiff had “actual knowledge”
of the breach underlying his claim in November,
2006, when he received the letter from Lockheed
informing him he would not receive additional
(43a)

credited service under the Plan. In support,
Lockheed points out that Plaintiff understood the
November 7th letter when he received it (Guenther
Depo, at 120:3-6), that he agreed the letter stated he
was not entitled to a pension benefit for his period of
re-employment with Lockheed (Id. at 35:2-11; 35:2022; 81:3-6), and that the November 7th letter was
“[c]ompletely opposite of the first letter,” in reference
to the July 25th letter (Id. at 81:8). Lockheed also
points out that Plaintiff checked his online pension
account after he became re-employed in September,
2006, but did not see any additional accumulation of
credited service. Id. at 30:21-31:22. Based on these
statements, the court finds that Lockheed has met
its initial burden to establish the date of Plaintiff’s
“actual knowledge.” The evidence shows that, by the
time he received the November 7th letter, Plaintiff
knew the July 25th letter contained an inaccuracy,
and knew he was being harmed by not accruing
additional service credit.
In response, Plaintiff must produce evidence to
show the date of “actual knowledge” is a genuinely
disputed fact. He has not done so.
Plaintiff first argues the November 7th letter did
not provide him information sufficient to understand
he would not receive service credit for his reemployment. As Plaintiff puts it, the November 7th
letter did not “inform [Plaintiff] that the Plan had
been amended so that he could no longer accrue
service credit on rehire,” did not “state that the
amendment took place in 2005, before any of the
negotiations leading up to his rehire,” and “did not
(44a)

accurately reflect the facts.” Plaintiff relies on
statements made at his deposition which describe his
attempts to determine whether he was entitled to
additional service credit. But neither this argument,
nor the evidence cited, creates a genuine issue of fact
as to the date of Plaintiff’s “actual knowledge.”
Though Plaintiff faults the November 7th letter for
not imparting more information about the 2005 plan
amendment or for insinuating he was not a pension
participant, such information is beside the point;
Plaintiff unequivocally stated he understood the
November 7th letter to mean he was not entitled to a
pension benefit on re-employment with Lockheed,
and he knew from his online account he was not
accruing credit. See Meagher v. Int’l Ass’n of
Machinists & Aerospace Workers Pension Plan, 856
F.2d 1418, 1423 (9th Cir. 1988) (“We have held that
the statute of limitations is triggered by [a
claimant’s] knowledge of the transaction that
constituted the alleged violation, not by [his]
knowledge of the law.”). That Plaintiff felt it
necessary to make further inquiry about the state of
his pension benefits only reinforces the conclusion
that Plaintiff had actual notice of the violation when
he received the November 7th letter.
Moreover, disclosure of the 2005 plan amendment
was not necessary for Plaintiff’s breach claim to
accrue in any event. Plaintiff does not contend the
amendment itself constituted an ERISA violation.
Rather, Plaintiff contends Lockheed caused him
harm by allegedly failing to notify him about its
effect on his pension benefits before he agreed to
accept a new position. SAC, at ¶ 4 (“[Plaintiff] agreed
(45a)

to return only after Lockheed Martin informed him
that bridging his service would not be a problem.”);
¶ 25 (“If [Plaintiff] had thought the only effect of
bridging service would be to slightly accelerate his
participation in the Capital Accumulation Plan … he
would never have left his steady job with LLNL.”).
The November 7th letter related the effect of the
2005 plan amendment, and Plaintiff stated he
understood it.
Plaintiff also appears to rely on his declaration,
submitted with the opposition to this motion, in
which he states the November 7th letter did not
provide “actual knowledge of the facts related to
Lockheed’s breach of fiduciary duty,” and suggests he
had no reason to believe the November 7th letter was
accurate over the July 25th letter. But, as Plaintiff
understands the letters, one must have contained an
inaccuracy since the information about Plaintiff’s
right to “bridge” service cannot be reconciled between
them. Either way, Plaintiff had actual knowledge of
the discrepancy by November 7, 2006, at the latest.
On this record, there is no dispute of material fact
that Plaintiff had actual knowledge of the breach
underlying his claim by November 7, 2006. Applying
the § 1113’s three-year statute of limitations,
Plaintiff should have asserted the claim by
November, 2009. Since it can only relate back to the
date the original complaint was filed on November 8,
2010, the breach of fiduciary duty claim is untimely.
See Asarco, LLC v. Union Pac. R.R. Co., 765 F.3d
999, 1004 (9th Cir. 2013) (“[A]n amendment
asserting a new or changed claim relates back to the
(46a)

date of the original pleading if the amendment ‘arose
out of the conduct, transaction, or occurrence set out
… in the original pleading.’”).
ii. The Six Year Statute of Limitations
Plaintiff argues his claim is not barred by § 1113’s
three-year statute of limitations because it is instead
subject to the six-year statute for cases of fraud or
concealment. For the six-year statute to apply at the
summary judgment stage, Plaintiff must produce
specific evidence of “affirmative conduct upon the
part of the defendant which would, under the
circumstances of the case, lead a reasonable person
to believe that he did not have a claim for relief.”
Barker, 64 F.3d at 1402 (emphasis preserved).
“[C]ourts have concluded that affirmative steps of
concealment, as opposed to mere failure to disclose,
is necessary to toll the running of the statute of
limitations” to six years. Yamauchi v. Cotterman, 84
F. Supp. 3d 993, 1006 (N.D. Cal. 2015). “[O]ffering
proof of the underlying breach of fiduciary duty is not
enough.” Id.
Plaintiff has not satisfied his burden to set forth
specific facts establishing that Lockheed engaged in
fraudulent activity or concealment. In his opposition,
Plaintiff attempts to invoke the six-year statute by
relying on the same evidence underlying his breach
claim. That is insufficient, as persuasively explained
in Yamauchi. If every breach claim involving a
failure
to
disclose
material
information
automatically triggered § 1113’s six year statute of
limitations – as Plaintiff seems to advocate – the
exception would swallow the rule.
(47a)

But even putting Yamauchi aside, the evidence
still fails when considered on its substance. Nothing
in the record demonstrates that Lockheed took
affirmative steps to conceal either its alleged breach
or any relevant information about the pension plan.
See Barker, 64 F.3d at 1402 (“Substantial authority
indicates, however, that the [fraud] exception applies
only when the defendant has taken steps to hide his
breach of fiduciary duty.”). To the contrary, Lockheed
sent Plaintiff two letters, one of which conceivably
contained accurate information based on Plaintiff’s
understanding of “bridging,” and one which did not.
Even if Plaintiff did not know which letter to believe,
the contradictory information sufficiently informed
him of a possible claim against Lockheed.
Moreover, Plaintiff’s unsuccessful attempts to
discover more information from Lockheed and others
subsequent to the November 7th letter do not alter
the analysis. While Plaintiff has produced evidence
to show a possible breach of fiduciary duty, he has
not shown anything beyond a failure to disclose.
Plaintiff has not put forward evidence rising to the
level of active concealment or “knowingly false
misrepresentations with the intent to defraud.” Id. at
1401. That sort of showing is not enough, and the
authority cited by Plaintiff does not persuade the
court otherwise.2
Plaintiff mischaracterizes Moyle v. Liberty Mutual
Retirement Benefit Plan, 823 F.3d 948 (9th Cir. 2016), which he
argues “bears strong factual similarities to this case.” Though
Plaintiff states, without citation, that the Ninth Circuit “held
that the statute of limitations was tolled until six years after
discovery of the misrepresentations,” no such holding appears
2

(48a)

The court finds the six year statute of limitations
for ERISA claims involving fraud does not apply.
iii. Waiver
Plaintiff argues Lockheed waived a statute of
limitations defense by not raising it before Plaintiff
pursued an administrative appeal. The court
previously explained in addressing the motion to
dismiss the SAC why Plaintiff’s argument is
misplaced in light of the unique circumstances
presented by this case.
While Federal Rules of Civil Procedure 8(c) and
12 require that defenses like the statute of
limitations be included in a responsive pleading,
those rules do not bar Lockheed from raising the
defense because Plaintiff had not asserted a breach
of fiduciary duty claim under ERISA until he filed
the SAC, post-remand, pursuant to the Ninth
Circuit’s instructions. Lockheed could not respond
with defenses to a breach claim under Plaintiff’s
prior complaints, and cannot be expected to predict
what new claims might be raised later in the action.
Similarly, the administrative process that
occurred while this case was stayed did not function
to waive the defense. That process was necessary for
Plaintiff to exhaust a claim for benefits under
29 U.S.C. § 1132(a)(1)(B). Breach of fiduciary duty
in Moyle. In fact, the term “statute of limitations” is mentioned
only twice in the Moyle opinion: once in the introduction, and
once in a footnote indicating the Ninth Circuit was declining to
take up the issue. 823 F.3d at 956, 959 n.5.

(49a)

claims under ERISA, however, do not require
administrative exhaustion (Fujikawa v. Gushiken,
823 F.2d 1341, 1345 (9th Cir. 1987)), and nothing
suggests that Plaintiff submitted the breach claim –
which again had not yet been asserted in this action
– to the plan administrator for a decision. As such,
there was no basis for the administrator to specify
the § 1113 statute of limitations in its denial of
Plaintiff’s appeal.
The court rejects Plaintiff’s argument based on
waiver of the statute of limitations defense.
IV. ORDER
Because there is no dispute of material fact that
Plaintiff’s breach of fiduciary duty claim is barred by
the three-year statute of limitations, Lockheed’s
Motion for Summary Judgment (Dkt. No. 133) is
GRANTED.
All other matters are TERMINATED and
VACATED. Judgment will be entered in favor of
Lockheed and the Clerk shall close this file.
IT IS SO ORDERED.
Dated: September 1, 2017
__/s/ Edward J. Davila_____
EDWARD J. DAVILA
United States District Judge

(50a)

APPENDIX C
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CHARLES GUENTHER,
Plaintiff-Appellant,
v.
LOCKHEED MARTIN
CORPORATION; LOCKHEED
MARTIN CORPORATION
RETIREMENT PLAN FOR
CERTAIN SALARIED
EMPLOYEES,

No. 14-15193
D.C. No.
5:11-cv-00380EJD
MEMORANDUM*

Defendants-Appellees.
[Filed: MAR 29 2016]

* This disposition is not appropriate for publication and is
not precedent except as provided by 9th Cir. R. 36-3.

(51a)

Appeal from the United States District Court
for the Northern District of California
Edward J. Davila, District Judge, Presiding
Argued and Submitted February 9, 2016
San Francisco, California
Before: HAWKINS, W. FLETCHER,
and MURGUIA, Circuit Judges.

Charles Guenther appeals the district court’s
grant of summary judgment to Lockheed Martin
Corporation (“Lockheed”) and the Lockheed Martin
Corporation Salaried Employee Retirement Program
(“the Plan”), a defined benefit plan, on claims arising
under the Employee Retirement Income Security Act
of 1974 (“ERISA”), 29 U.S.C. § 1132. We affirm in
part, vacate in part, and remand.
We affirm the district court’s grant of summary
judgment to Lockheed and the Plan (collectively,
“Defendants”) on Guenther’s claim under 29 U.S.C.
§ 1132(a)(1)(B). We review for abuse of discretion
Lockheed’s determination that Guenther was not
entitled to benefits under the terms of the Plan. See
Salomaa v. Honda Long Term Disability Plan, 642
F.3d 666, 673 (9th Cir. 2011). Under this standard,
an ERISA plan administrator’s decision will be
upheld if it was “reasonable.” See id. at 675 (citing
Conkright v. Frommert, 559 U.S. 506, 521 (2011)). If
the Plan administrator has a conflict of interest or
violated the procedural requirements of ERISA, we
use the same standard of review, but “judge the
(52a)

reasonableness
of
the
plan
administrator
skeptically.” Id.; see also Abatie v. Alta Health & Life
Ins. Co., 458 F.3d 955, 972 (9th Cir. 2006) (en banc).
Here, the Plan amendment adopted in 2005
provided that “no person who is re-employed by an
Employing Company on or after January 1, 2006
shall become an active Participant or earn Credited
Service under the Plan with respect to any period
commencing with such reemployment.” Guenther
was rehired by Lockheed in September 2006.
Applying “special skepticism” because of Lockheed’s
conflict of interest and alleged procedural
irregularities, we nevertheless conclude that it was
reasonable for Lockheed to interpret the terms of the
Plan to preclude Guenther from continuing to accrue
credited service after his rehire.
Guenther also asserts that Defendants breached
their fiduciary duty to him and seeks equitable relief
to redress that breach under 29 U.S.C. § 1132(a)(3).1
The Supreme Court has recognized three types of
equitable relief available under § 1132(a)(3):
equitable estoppel, reformation, and surcharge.
CIGNA Corp. v. Amara, 563 U.S. 421, 440-42 (2011);
see also Gabriel v. Alaska Elec. Pension Fund, 773
F.3d 945, 955-58, 961-63 (9th Cir. 2014) (describing
requirements for equitable estoppel, reformation,
1

See 29 U.S.C. § 1132(a)(3) (permitting participants and
beneficiaries to obtain “appropriate equitable relief” to redress
ERISA violations); id. § 1104(a)(1) (requiring ERISA fiduciary
to discharge its duties “solely in the interest of the participants
and beneficiaries” and “for the exclusive purpose of … providing
benefits to participants and their beneficiaries”).

(53a)

and surcharge); Skinner v. Northrop Grumman Ret.
Plan B, 673 F.3d 1162, 1166-67 (9th Cir. 2012)
(discussing reformation and surcharge). The district
court addressed only equitable estoppel, holding that
Guenther did not clearly allege equitable estoppel
and denying his motion to amend as untimely. In the
alternative, the district court held that the equitable
estoppel claim failed because there was no
misrepresentation and the Plan terms were not
ambiguous, as required for equitable estoppel under
Ninth Circuit case law.
We disagree with the district court’s
determination that Guenther failed to allege facts
supporting a breach of fiduciary duty claim under
§ 1132(a)(3). His First Amended Complaint (FAC)
alleged the following facts:
When Lockheed recruited Guenther to return to
the company in 2006, one of Guenther’s “key
conditions” of returning was that he continue to
“receive the full benefit of the company’s defined
benefit retirement plan.” A Lockheed representative
promised him in writing that it would be possible to
“bridge” his prior service. Upon Guenther’s previous
rehire at Lockheed in 1997, he had been promised
“bridging,” and the credited service he accrued
during his subsequent period of employment had
been combined with his previous period of
employment to determine his overall credited service
time under the Plan. Lockheed never informed him
until after he returned to Lockheed in 2006 that it
meant something different by “bridging” on this
second occasion – i.e., that now, under its current use
(54a)

of the term, “bridging” did not include accruing
additional credited service under the Plan. Nor did
Lockheed inform him that it would place him on a
different plan.2 Guenther left his job at Lawrence
Livermore National Laboratories and rejoined
Lockheed in reliance on Lockheed’s promise, as he
understood it, that his employment would be
“bridged” such that upon his new employment he
would accrue credited service under the Plan.
These detailed allegations and the “bridging”
letters from Lockheed attached to the FAC were
sufficient to put Defendants on notice that Guenther
was accusing them of misrepresenting his ability to
accrue more credited service time under the Plan. In
fact, Defendants seemed to realize that Guenther
was alleging a misrepresentation, as they asserted
an affirmative defense to equitable estoppel in their
answer.
We also disagree with the district court’s
conclusion that there was no misrepresentation.
That conclusion was premature in light of (1) the
unchallenged evidence that Guenther had received
“bridging” in the way that he understood it the last
time he was rehired by Lockheed, and Defendants
made no mention that they were using a new defined
contribution retirement plan and that the 2005 Plan
amendment barred the type of “bridging” Guenther
expected; and (2) the lack of opportunity for Guenther

2

Although not specifically alleged, the record shows that
Lockheed also failed to inform Guenther that the 2005 Plan
amendment excluded rehires from accruing credited service.

(55a)

to conduct discovery into Defendants’ frame of mind
when they made that promise.
However, we do agree with the district court’s
final decision to grant summary judgment as to
equitable estoppel. Alleging and proving a material
misrepresentation by a fiduciary (a breach of fiduciary
duty) is not necessarily sufficient to obtain equitable
relief under § 1132(a)(3). Additional criteria must be
met to obtain certain types of equitable relief. The
district court correctly held that, under long-standing
Ninth Circuit case law, Guenther was not eligible for
equitable estoppel because the post-2005 Plan terms
are unambiguous. See Greany v. W. Farm Bureau Life
Ins. Co., 973 F.2d 812, 822 (9th Cir. 1992) (equitable
estoppel is not available if it “would result in a
payment of benefits that would be inconsistent with
the written plan”); see also Gabriel, 773 F.3d at 957
(requiring party seeking estoppel to show “that the
provisions of the plan at issue were ambiguous such
that reasonable persons could disagree as to their
meaning or effect”). Thus, we affirm the district
court’s grant of summary judgment as to equitable
estoppel.
The district court did not discuss reformation or
surcharge. Our intervening issuance of Gabriel
provides guidance on the availability of these
remedies. Like in Gabriel, reformation in this case is
not available because it “would result in a payment of
benefits that would be inconsistent with the written
plan.” Gabriel, 773 F.3d at 962. On the other hand,
Gabriel suggested that surcharge could be available
notwithstanding any conflict with the unambiguous
(56a)

terms of the plan. See id. at 962-63 (vacating and
remanding for the district court to consider
surcharge). Thus, we vacate the district court’s
judgment on Guenther’s § 1132(a)(3) claim and
remand for the district court to consider whether
Defendants breached a fiduciary duty and, if so,
whether Guenther is entitled to surcharge as a
remedy. On remand, the court should allow discovery
of evidence relevant to these issues, including
evidence outside the administrative record. Jensen v.
Solvay Chems., Inc., 520 F. Supp. 2d 1349, 1355
(D. Wyo. 2007) (distinguishing § 1132(a)(1)(B) claims
from § 1132(a)(3) claims and allowing discovery
outside the administrative record for the latter); see
also Colaco v. ASIC Advantage Simplified Pension
Plan, 301 F.R.D. 431, 434-35 & n.27 (N.D. Cal. 2014)
(citing Jensen and allowing discovery beyond
administrative record in connection with § 1132(a)(3)
claim); Sconiers v. First Unum Life Ins. Co., 830 F.
Supp. 2d 772, 778 (N.D. Cal. 2011) (denying summary
judgment as premature and allowing discovery into
§ 1132(a)(3) claim).
AFFIRMED in part; VACATED in part; and
REMANDED with instructions. Each party shall
bear its own costs on appeal.

(57a)

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CHARLES GUENTHER,
PlaintiffAppellant,
v.
LOCKHEED MARTIN
CORPORATION; LOCKHEED
MARTIN CORPORATION
RETIREMENT PLAN FOR
CERTAIN SALARIED
EMPLOYEES,
DefendantsAppellees.

Nos. 17-16984
18-15823
D.C. No.
5:11-cv-00380EJD
Northern District
of California,
San Jose
ORDER

[Filed: SEP 14 2020]
Before: GOULD, IKUTA, and R. NELSON, Circuit
Judges.
Appellant’s petition for rehearing en banc
(Dkt. No. 56) is hereby DENIED as untimely.

(58a)

APPENDIX E
29 U.S.C. § 1113
Employee Retirement Income Security Program
(ERISA), Protection of Employee Benefit Rights,
Regulatory Provisions, Fiduciary Responsibility,
Limitation of Actions:

No action may be commenced under this subchapter
with respect to a fiduciary’s breach of any
responsibility, duty, or obligation under this part, or
with respect to a violation of this part, after the
earlier of –
(1) six years after (A) the date of the last
action which constituted a part of the breach or
violation, or (B) in the case of an omission the
latest date on which the fiduciary could have
cured the breach or violation, or
(2) three years after the earliest date on which
the plaintiff had actual knowledge of the breach
or violation;
except that in the case of fraud or concealment, such
action may be commenced not later than six years
after the date of discovery of such breach or
violation.

(59a)

